Mission
The Oﬃce of Inspector General is an independent and objective voice
that helps Congress, the Board of Directors and PBGC protect the
pension beneﬁts of American workers by promoting positive change,
accountability and Integrity


Vision
We will be recognized by our stakeholders as the primary source of
objective & independent information for their key decisions


Values
Respect
We will treat others as we would like them to treat us


Integrity
We will be a role model of ethical behavior


Excellence
We will constantly innovate & improve the quality and value of our work
                              Pension Beneﬁt Guaranty Corporation
                                                               Ofﬁce of Inspector General
                                                 1200 K Street, NW, Washington, DC 20005-4026


                                                                                October 31, 2006

The Honorable Elaine Chao
Chairman, PBGC Board of Directors


On behalf of the Oﬃce of Inspector General for the Pension Beneﬁt Guaranty Corporation, I am
pleased to submit this Semiannual Report to the U.S. Congress for the 6-month period ending
September 30, 2006. It details our eﬀorts to improve the economy and eﬃciency of PBGC operations,
our eﬀorts to prevent fraud, waste and misconduct, and fulﬁlls our reporting requirements under the
Inspector General Act.

I am pleased to report that PBGC made considerable progress in addressing conditions reported in
previous semiannual reports. The Chief Financial Oﬃcer’s continuing initiative to assign accountability
and aggressively oversee corrective actions for audit recommendations has resulted in a renewed
commitment to resolving long standing problems. Notably, PBGC will use a newly implemented
consolidated ﬁnancial system to prepare next year’s ﬁnancial statements. I am hopeful the new
system will help PBGC resolve the reportable condition related to integrating ﬁnancial systems we
have reported for several years.

During this semiannual period, we issued two signiﬁcant reports that highlight the unique nature of
PBGC – a self-ﬁnancing corporation doing business in the complex ﬁnancial world, while also a federal
government entity charged with protecting and using trust funds to pay retirees’ beneﬁts and ﬁnance
its operations.

  • Increasingly, PBGC is involved in bankruptcies where a signiﬁcant equity stake in the reorganized
    company is received for unfunded pension liabilities. In the ﬁrst report, we evaluated PBGC’s sale
    of a major stock claim to determine if PBGC’s actions were reasonable in light of industry standards
    for institutional investors. We concluded that PBGC needs an over-arching policy and internal
    procedures that delineate authorities and responsibilities for acquisition and sale of such claims.


  • In the second report, we disclosed to the Board and Congress that $7 million included in PBGC’s
    FY 2007 budget request was a disproportionate share of development costs for a new electronic
    ﬁling system used by several government agencies. In addition, we observed that earmark
    language in PBGC’s appropriation to fund the system sets a precedent for using PBGC trust funds
    to supplement appropriations of other federal agencies.


Our investigative unit’s work centered on employee integrity, fraudulent claims, protecting the
pension beneﬁts of participants and safeguarding PBGC assets. PBGC management is using our
investigative reports to discipline employees with integrity violations, and we obtained a conviction of
an individual involved in an identity and pension check theft scheme. Our investigators engaged
in activities to improve controls and deter fraud, including the Assistant IG for Investigations
participating as a non-voting member on the agency’s Internal Control Committee, and issuing a
management advisory alerting management to control weaknesses uncovered in an investigation.
We will continue to collaborate with the Oﬃce of the General Counsel to strengthen the ethical
environment here at PBGC.

As a strong champion of pension reform, you know that the Pension Protection Act of 2006, passed
in August 2006, is the most comprehensive legislation enacted since PBGC was established in 1974.
The Act touches virtually every aspect of PBGC’s ﬁnancial operations and the Deﬁcit Reduction Act
provides a much needed increase in premium revenues. This should improve the Corporation’s
ﬁnancial position, but the long-term impact on PBGC’s continuing deﬁcit is uncertain. We will closely
monitor the impact of the legislation on PBGC’s ﬁnancial position.

I want to acknowledge the extraordinary eﬀorts of our staﬀ, and thank them for their dedication
to duty and accomplishments. I am gratiﬁed by the continued support of our work and the spirit
of cooperation with PBGC and the Board. We are proud to be part of an organization that protects
the pensions of over 44 million Americans, and will constantly strive to keep its programs eﬃcient,
eﬀective and free from fraud, waste and abuse.




Robert L. Emmons
Inspector General




                     PENSION BENEFIT GUARANTY CORPORATION
Table of Contents
Letter to the Chairman
Executive Summary . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .1
Introduction . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .3
The Pension Beneﬁt Guaranty Corporation
The Oﬃce of Inspector General
Audits . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .5
Overview
Audit Activity
    Governance
    Financial Management
    Information Technology
    Procurement and Contracting
    Program Performance
Other Audit Activity
Access to Information
Management Decisions
Investigations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19
Overview
Activity This Period
    Signiﬁcant Investigations
    Fraud and Awareness Alert
    Follow-up on Agency Administrative Action
    Summary of Investigative Activities
Other Oﬃce of Inspector General Activities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23
Review of Proposed Statutory and Regulatory Changes
Internal PBGC Activities
External Activities
Internal OIG Activities
Appendix . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27
Cross-Reference to Reporting Requirements of the Inspector General Act
Reports Issued with Questioned Costs and Funds Put to Better Use
Signiﬁcant Problems, Deﬁciencies and Recommendations
Glossary . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 30




                              SEMIANNUAL REPORT OF THE INSPECTOR GENERAL—SEPTEMBER 2006                                                         iii
PENSION BENEFIT GUARANTY CORPORATION
Executive Summary
This Semiannual Report to Congress summarizes the activities and accomplishments of
the Pension Beneﬁt Guaranty Corporation (PBGC) Oﬃce of Inspector General (OIG) for
the period April 1, 2005, through September 30, 2006. When accomplishing audit and
investigative work, we ensure that it accords with our mission to be an “independent
and objective voice for Congress, the Board of Directors, and PBGC.” We want to focus
our work on the challenges facing PBGC and to be the primary source of timely and
objective information for the organization. We will accomplish our work demonstrating
our values of respect, excellence, and integrity.

We conducted work in all areas designated as management challenges, including:

  • Governance— our evaluation of PBGC’s actions in marketing and selling a
    signiﬁcant claim to stock that it obtained in a reorganized private sector business
    resulted in recommendations to establish policy, internal guidance regarding                Two signiﬁcant
    responsibilities, and standard documentation for such dispositions (see page 5).           reports highlight
  • Program performance—our audit concluded that the $7 million proposed
    expenditure in PBGC’s FY2007 budget for developing of a system jointly used                the unique nature
    by several federal agencies was disproportionate, and we responded to a                        of PBGC
    Congressional request concerning PBGC’s proportional share (see page 6).
  • Financial management— in monitoring and facilitating the work of our ﬁnancial
    statement audit contractor, we evaluated substantive statutory and regulatory
    changes impacting the ﬁnancial statements and participated in regular meetings
    with the Chief Financial Oﬃcer and ﬁnancial operations staﬀ (see page 8).
  • Information technology — our FISMA report noted signiﬁcant information security
    improvements but continued to highlight a concern about systems certiﬁcation
    and accreditation; and our evaluation of PBGC’s use and distribution of Blackberry
    devices recommended that PBGC develop distribution and cost-management
    policy. (see page 11 and 13).
  • Procurement and contracting—we questioned costs in audits of a contractor’s
    termination proposal and its incurred costs prior to termination for a signiﬁcant IT
    development contract that PBGC terminated (see page 11).

  In the investigative area, we opened 11 new cases, and closed 16 cases and 10
    inquiries. Signiﬁcant investigative work this period included:

  • ﬁnding a PBGC manager was using PBGC resources to operate a travel business,
    soliciting and arranging travel for PBGC employees, contractors and external
    individuals (see page19)
  • obtaining an indictment and conviction of one participant in a multi-state fraud
    scheme to steal the identity of “missing participants” and obtain pension checks
    ranging from $4,000 to $21,000 (see page 20); and
  • issuing a management advisory regarding internal control vulnerabilities we found
    while investigating fraud in the Missing Participants program. (see page 21).

OIG staﬀ participated in many internal and external activities, including as non-voting
members of PBGC oversight committees, PBGC mentoring and tutoring programs, IG
community initiatives, and external professional organizations.



                             SEMIANNUAL REPORT OF THE INSPECTOR GENERAL—SEPTEMBER 2006
                                                                                           1
2   PENSION BENEFIT GUARANTY CORPORATION
Introduction
The Pension Benefit Guaranty Corporation
The Pension Beneﬁt Guaranty Corporation (PBGC, or the Corporation) was established
under Title IV of the Employee Retirement Income Security Act of 1974 (ERISA), as
amended (29 U.S.C. §§ 1301-1461), as a self-ﬁnancing, wholly owned federal government              Each month, PBGC
Corporation to administer the pension insurance program. ERISA requires that PBGC:
(1) encourage the continuation and maintenance of voluntary private pension plans, (2)             pays about $370
provide for the timely and uninterrupted payment of pension beneﬁts to participants and            million in pension
beneﬁciaries, and (3) maintain premiums at the lowest level consistent with carrying out
PBGC’s obligations.                                                                                beneﬁts to about

For about 44 million Americans, PBGC provides assurance that their retirement beneﬁts              700,000 retirees.
will be paid, up to a statutory limit. PBGC protects the pensions of participants in certain
deﬁned beneﬁt pension plans (i.e., plans that promise to pay deﬁnitely determinable
retirement beneﬁts). Such deﬁned beneﬁt pension plans may be sponsored individually
or jointly by employers and unions. PBGC is now responsible for the pensions of about 1.3
million people, including about 600,000 who will receive beneﬁts when they retire in the
future. PBGC pays about $370 million a month to about 700,000 current retirees.

The Office of Inspector General
The mission of the Oﬃce of Inspector General (OIG) is to be an independent and
objective voice that helps the Congress, the Board of Directors, and PBGC protect the
pension beneﬁts of American workers by promoting positive change, accountability, and
integrity. To accomplish our mission, the OIG conducts agency audits, inspections, and
investigations to provide our stakeholders with information they need to make decisions.
                                                                                               OIG moved into new
This period, we had some exciting changes:
                                                                                               space and welcomed
  • moving into new oﬃce space we designed to meet our needs, that includes team
                                                                                                    ﬁve new staﬀ
    rooms, permanent workstation space for our contractors, and maximum natural light
    for staﬀ.
  • welcoming ﬁve new staﬀ members, including a ﬁnancial audit manager, a forensic
    auditor, and three staﬀ auditors. Of our 22 authorized positions, we are currently
    recruiting to ﬁll one position.

To provide value, we focus our work on the challenges that PBGC is facing, whether we
are issuing audits, evaluations and investigative reports, or consulting with PBGC and
participating on various teams and in working groups. We are committed to our values of
respect, excellence, and integrity in all we do.

Our approach to audit planning concentrates our eﬀorts on identifying issues that are
important to PBGC. We maintain an inventory of suggested audits that we receive from



                             SEMIANNUAL REPORT OF THE INSPECTOR GENERAL—SEPTEMBER 2006         3
                         a variety of sources, including the Board of Directors and PBGC management. Each
                         year, we assess risk in terms of materiality, impact on operations, and potential for
 OIG uses input          adverse publicity for the Corporation. Based on this risk assessment, we identify the
from stakeholders        most important challenges on which to focus our work. The ﬁnal step is to plan and
                         conduct audits that address those challenges. We continue to focus on these major
to plan audits and       questions:
 investigations.
                           • Does PBGC have a governance model that ensures reliable and complete ﬁnancial
                             reporting, eﬀective customer service, and ethical business dealings?
                           • Does PBGC have strong ﬁnancial controls that are needed to protect assets and
                             minimize costs?
                           • Does PBGC eﬀectively balance operational eﬃciency with optimal customer service?
                           • Do PBGC contractors provide quality products and services at a reasonable price?
                           • Do PBGC’s information systems maximize customer service while protecting the
                             privacy and integrity of information?

                         We have scheduled audits and reviews in 2007 to address each of these challenges.

                         As required by the Chief Financial Oﬃcers Act, we continue to audit PBGC’s ﬁnancial
                         statements. The OIG contracts with an independent public accountant to perform
                         this work.

                         In our attempt to maximize limited resources, our approach to investigations is to
                         apply strict criteria in evaluating the quality of the allegations received. For example,
                         we evaluate allegations against the potential criminal and civil violations, the statute
                         of limitations, the potential for negative publicity for PBGC, and the total assets
                         involved. This allows us to concentrate on investigative issues that are most important
                         to PBGC.

                         The OIG follows the standards contained in the Quality Standards for Federal Oﬃces of
                         Inspector General, published by the President’s Council on Integrity and Eﬃciency (PCIE)
                         and the Executive Council on Integrity and Eﬃciency (ECIE). These standards require
                         audits to be conducted in accordance with Government Auditing Standards, issued by
                         the Government Accountability Oﬃce. Our investigations comply with Quality Standards
                         for Investigations, which have been accepted by the PCIE and ECIE.




                     4   PENSION BENEFIT GUARANTY CORPORATION
Audits and Evaluations
Overview

Our approach is to focus our audits and evaluations on areas that present signiﬁcant
management challenges to PBGC. Using our past work and input from the Board of
Directors and management, we conducted work this semiannual period to address
governance, program performance, ﬁnancial management, information technology, and
procurement and contracts issues. The OIG staﬀ participated on corporate-wide teams
addressing various issues of joint concern. Our goal is to have a positive impact on the
decision-making process of the Board of Directors and PBGC management.


1.     Governance
Governance is a major challenge of the Corporation, particularly as it struggles with
a growing deﬁcit and record numbers of terminated pension plans and participants.
Oversight of the ﬁnancial operations and ﬁnancial reporting by the Board of Directors,
PBGC management and the OIG is critical to eﬀective corporate governance. Equally
important is the ethical tone set by PBGC leaders as we conduct our business.

Review of PBGC Claims Sale
(2006-11/PA-0029)

We engaged an independent investment advisory ﬁrm to evaluate whether PBGC’s
actions in marketing and selling its claim to stock in a reorganized company prior to
its emergence from bankruptcy was reasonable in light of PBGC’s governance and
industry standards for institutional investors. PBGC has, and is likely to continue to
                                                                                                PBGC bankrupty
have, unsecured claims against bankrupt pension plan sponsors arising out of plan
terminations. PBGC’s claims may result in the federal government’s right to receive             claims may result
a signiﬁcant equity stake in a reorganized private sector business. Thus, PBGC
                                                                                                 in a signiﬁcant
needs an over-arching policy and internal procedures that delineate authorities and
responsibilities for acquisition and sale of such securities. The policy and internal            equity stake in
guidance should address, for example, communication between the Board and PBGC
                                                                                                 a reorganized
about such transactions, and consultations among PBGC departments at key points.
                                                                                                 private-sector
As a result of the evaluation, we recommended that PBGC develop:
                                                                                                    business
 • policies and procedures with respect to the disposition of bankruptcy claims;
 • governance documents to clearly set out responsibilities for such dispositions, and
 • standard documentation for claims sales.


PBGC agreed with our ﬁndings and recommendations, and will be reporting their
implementation progress to the OIG in February 2007.

Because this report contains conﬁdential business information, the report is not publicly
available .

                            SEMIANNUAL REPORT OF THE INSPECTOR GENERAL—SEPTEMBER 2006       5
                             Pension Protection Act of 2006

                             With the passage of the Pension Protection Act of 2006, Title IV of ERISA was amended
                             to add a Presidentially-appointed and Senate conﬁrmed “Director” who is responsible
                             for administering PBGC in accordance with policies established by the Board. In the
                             coming months, we will monitor the governance implications of this provision. The
                             Act does not change OIG’s reporting relationship to the PBGC Board of Directors,
                             which provides a critical role in setting policy and overseeing PBGC.

                             We will continue to work with the Board and management for a governance model
                             that ensures reliable and complete ﬁnancial reporting, eﬀective customer service, and
                             ethical business dealings.


                             2. Program Performance
                             Signiﬁcant OIG resources this period were devoted to auditing whether PBGC was
                             being required to pay a disproportionate share of the development costs of a new
                             electronic ﬁling system that the Department of Labor is developing. PBGC was
                             directed to request $7 million (M) in its FY2007 budget request to pay for about half
                             of the development costs of EFAST2. This audit raised questions that impacted the
                             budget process as well as PBGC’s governance structure. For example, when Congress
                             established PBGC as a government corporation, what role did it envision for the
                             Department of Labor (DOL) in overseeing and directing expenditures of PBGC trust
                             funds?

                             Audit of FY2007 EFAST2 Development Costs
                             (2006-12/PA-0026)

                              In October 2005, OIG expressed concern about DOL directing PBGC to include $7M
                             in its FY2007 budget request to fund a disproportionate share of the ERISA Filing
                             Acceptance System (EFAST2) development costs. DOL is developing EFAST2 with two
                             partnering agencies, the Internal Revenue Service (IRS) and PBGC. IRS is a signiﬁcant
Our EFAST2 report informed   user of EFAST information (the current system), but they are not funding any of the
                             EFAST2 development costs. Our audit was to determine if PBGC’s funding for EFAST2 is
the Board and Congress of    disproportionate and, if so, to ensure that policy makers (Congress, the PBGC Board of
                             Directors, and in particular the Department of Treasury) were fully informed regarding
    disproporationate
                             this issue.
       cost-sharing
                             EFAST2 will be a new, fully-electronic system to ﬁle the Form 5500. Among
                             other things, the Form 5500 is used by partnering agencies DOL, IRS and PBGC
                             to obtain critical information about pension plans for which they have oversight
                             and enforcement responsibilities. The EFAST2 development costs for FY2007 are
                             approximately $14.5M.

                             Our audit found that DOL had originally planned to fund the entire EFAST2
                             development costs. In August 2005, however, without consulting the partnering
                             agencies, DOL prepared a budget document that assessed FY2007 development costs

                        6    PENSION BENEFIT GUARANTY CORPORATION
to the partnering agencies: PBGC $500,000, DOL $7M and IRS $7M. When the IRS
could not contribute to the development costs so late in the FY2007 budget process,
in October 2005, the Oﬃce of Management and Budget (OMB) and DOL assessed an
additional $6.5M to PBGC’s FY2007 budget through the budget passback process.

After the Inspector General (IG) and PBGC raised concerns about disproportionate
funding, DOL drafted “earmark” language for PBGC’s FY2007 appropriation that
requires PBGC to transfer $7M to DOL for EFAST2’s development.

OIG concluded that PBGC’s share of EFAST2 development costs for FY2007 is not
proportionate to the partnering agencies. If PBGC pays $7M, it will be paying 48%
of the FY2007 EFAST2 development costs while IRS, a major user of the systems,
pays none of the development costs. Historically, DOL has assessed the partnering
agencies a share of the operating costs (not development costs) based on their
use. This resulted in PBGC paying about 2%, IRS paying about 55%, and DOL paying
about 42%. During the audit, DOL suggested alternate methods for computing “use,”
however we noted that these methods had not been disclosed to PBGC or IRS for
veriﬁcation of the proportional use attributed to them.


              Agencies' Shares of Operating vs. Developmental Costs

  100%

   90%

   80%

   70%

   60%                                       56%
                         52%
                                                                             48%
   50%
                42%
   40%

   30%

   20%

   10%
                                                      0%                2%
    0%
                      DOL                         IRS                    PBGC
                         Percent Shares of EFAST Operating Costs
                         Percent Shares of EFAST2 Developmental Costs




We conﬁrmed that Congressional appropriations and oversight committees and
PBGC’s Board of Directors were not fully informed of the issues we raised, including the
risks of disproportionate funding. We issued this report to fully disclose our ﬁndings
and conclusions to decision-makers before Congress approved PBGC’s FY2007 budget
request. We believe that earmarking the $7M in PBGC’s budget sets a precedent for
using PBGC trust funds to supplement the appropriations of other federal agencies.
                               SEMIANNUAL REPORT OF THE INSPECTOR GENERAL—SEPTEMBER 2006   7
                            Congressional Request

                             After we briefed the House Appropriations subcommittee with responsibility for
                            the DOL and PBGC budgets on our report’s conclusion, we were asked to provide an
                            estimate of PBGC’s proportional share of EFAST2 development costs. In our response,
                            we noted it is best that PBGC trust fund expenditures go through the normal budget
                            process and controls. We also indicated that earmarking funding for EFAST2 could set
                            a precedent for others to suggest earmarks to PBGC’s trust fund in the future. If the
Earmarking trust funds
                            three partnering agencies (DOL, IRS, and PBGC) agreed to share a proportional share of
could set a precedent       the EFAST2 development costs there would be no need for an earmark.

  for supplementing
                            Based on available data, we told the subcommittee that we believe PBGC’s share of
 appropriated funds         EFAST2 development costs could range from $500,000 to $3.6M. We also said no
                            information provided by DOL or PBGC would support PBGC paying $7M as earmarked
                            in the House Appropriations’ bill. Finally, we believe DOL should initiate cost-sharing
                            discussions with the partnering agencies and develop a transparent agreement that
                            shares costs proportionally and is mutually agreeable.


                            3.      Financial Management

                            PBGC is a signiﬁcant government entity that managed over $57 billion in assets and
                            paid approximately $3.7 billion in beneﬁt payments to retirees during FY2005. As of
                            September 30, 2005, the single-employer and multiemployer programs reported net
                            deﬁcit positions of approximately $22.8 billion and $335 million, respectively. This was
                            a slight improvement over FY2004, in which PBGC reported the largest deﬁcit in its
                            30-year history of more than $23 billion. We anticipate that when the FY2006 ﬁnancial
                            statements are published, they will also show an improvement over the FY2005 results.


                            PBGC currently has suﬃcient assets to pay participants guaranteed beneﬁts for a
                            number of years, but neither of its insurance programs has suﬃcient assets to satisfy
                            all of the beneﬁt obligations already incurred, much less future obligations likely to be
                            assumed. However, this risk is temporarily deferred, as the universe of deferred vested
 PBGC continues to          participants will retire over many years, not all at once.

 owe billions more in
                            In September 2005, the Congressional Budget Oﬃce estimated that the present value
 beneﬁts that it has        of PBGC’s net costs for deﬁned pension insurance for single-employer plans over the
 funds to pay               next 10 years is about $86.7 billion. That total consists of two distinct components:
                            $23.3 billion of losses from insurance claims for plans that have already terminated or
                            whose termination is imminent, and $63.4 billion of prospective losses over the next
                            10 years for terminations that have not yet occurred, net of future premiums. Total
                            costs for 15- and 20-year horizons are $119 billion and $141.9 billion, respectively.
                            PBGC anticipates that the Pension Protection Act will have a negative impact on these
                            estimates in the medium to long-term timeframe, since funding requirements will be
                            more stringent under the Act, and accounting for deﬁned beneﬁt pension plans is
                            changing. However, the extent of PBGC’s future losses is not yet known.

                        8   PENSION BENEFIT GUARANTY CORPORATION
For these reasons, strong ﬁnancial management controls are needed to protect the
existing assets and minimize current and future costs. The OIG continues to focus a
large portion of its work on ﬁnancial management and performance (economy and
eﬃciency) issues to help PBGC address these challenges. Given the importance of
this work, the OIG recently hired and designated separate managers to oversee the
ﬁnancial management and performance audit and advisory work.


Recent Statutory and Policy Changes aﬀecting Financial Management

Several recent statutory and policy changes will have a major impact on PBGC ﬁnancial
operations.

Deﬁcit Reduction Act of 2005
Employers who sponsor deﬁned beneﬁt plans must pay premiums to PBGC for each
participant in the plan. The Deﬁcit Reduction Act of 2005 increased PBGC’s per            The Deﬁcit Reduction Act
participant ﬂat premium rates and provided an annual inﬂation adjustment. This
should result in a signiﬁcant increase in PBGC’s premium revenues. Eﬀective for plan      provided a much-needed
year 2006, ﬂat rate premiums increased:                                                       increase in premium
 • for single-employer plans, from $19 to $30, and                                                 revenues
 • for multiemployer plans, from $2.60 to $8.00.

For single-employer plans in plan year 2007, PBGC has announced the ﬂat premium
rate will increase to $31 per participant. The Act also added a new premium charge
for certain terminated single-employer plans and a special rule for plans terminated in
bankruptcy reorganizations.

Pension Protection Act of 2006
The Pension Protection Act of 2006 is the most comprehensive pension reform
legislation since ERISA was enacted in 1974 and impacts virtually every aspect of
PBGC’s ﬁnancial management. The provisions that most directly aﬀect PBGC can be
categorized under:

 •   Funding requirements
 •   Beneﬁt restrictions
 •   PBGC premiums
 •   Multiemployer plans
 •   Cash balance plans
 •   Disclosure provisions
 •   Miscellaneous provisions including expanding PBGC’s missing participant
     program.

We are currently evaluating the impact of the legislation on PBGC’s ﬁnancial
management. Most of the provisions will be eﬀective in 2008 or later years.



                            SEMIANNUAL REPORT OF THE INSPECTOR GENERAL—SEPTEMBER 2006     9
                       Oﬃce of Management and Budget Guidance

                       Circular A-136, Financial Reporting Requirements: In conjunction with the Chief
                       Financial Oﬃcers (CFO) Council, OMB updated existing guidance relating to agency
                       and government-wide ﬁnancial reporting. The two sections that speciﬁcally apply
                       to PBGC are: Section I.5, Submission Deadlines, and Section V. Government-Wide
                       Financial Report. Section I.5 makes permanent the requirement that Government
                       Corporations submit their Annual Management Reports no later than 45 days after the
                       end of the ﬁscal year. PBGC should also submit to OMB a draft Annual Management
In updated guidance,   Report ten working days before the ﬁnal Annual Management Report is issued.

OMB requires a draft   The Department of the Treasury (Treasury) prepares the Financial Report of the United
annual management      States Government (FR) from data provided by Federal entities. PBGC is one of the
                       entities that reports information to the Treasury to support the FR as speciﬁed in
report by November 1   Section V of the Circular. PBGC prepares a Closing Package, including special-purpose
                       ﬁnancial statements, and submits them to Treasury through the Government-wide
                       Financial Report System. The special-purpose ﬁnancial statements directly link PBGC’s
                       audited ﬁnancial statements to the FR.

                       OMB Bulletin 06-03, Audit Requirements for Federal Financial Statements: On
                       August 23, 2006, OMB issued these minimum requirements for audits of Federal
                       ﬁnancial statements. The bulletin is eﬀective immediately and applies to the audits
                       of government corporations. Audit reports must be submitted to PBGC’s Interim
                       Director in suﬃcient time to enable PBGC to meet the November 15, 2006 deadline for
                       submission of audited ﬁnancial statements.


                       Ongoing Risk Assessments Aﬀecting Financial Management

                       The Federal Managers’ Financial Integrity Act (FMFIA) requires agencies to establish
                       and maintain eﬀective internal control. PBGC management is currently performing an
                       entity-wide risk assessment as part of PBGC’s compliance with FMFIA. PBGC is using
                       its FY 2005 risk assessment as a baseline and is considering new or changing factors
                       in PBGC’s internal and external environment that may aﬀect its risks. For example, last
                       year’s risk assessment included the need for new legislation. With the passage of the
                       Pension Protection Act of 2006, related risks will change.

                       Audit of PBGC’s FY 2006 Financial Statements

                       In accordance with the IG Act of 1978 and the Government Corporations Control Act
                       of 1945, the IG has contracted Clifton Gunderson LLP (CG) to conduct the audit of
                       PBGC’s FY 2006 ﬁnancial statements. This audit will be conducted in accordance with
                       Government Auditing Standards, U.S. Generally Accepted Auditing Standards, and the
                       GAO Financial Audit Manual.




                  10   PENSION BENEFIT GUARANTY CORPORATION
CG will issue three separate audit reports, which will be published on November 15,
2006, in relation to the audit of PBGC’s ﬁnancial statements:

(1)     an opinion on the ﬁnancial statements,
(2)     an opinion on management’s assertion on the eﬀectiveness of internal
controls over ﬁnancial reporting and compliance with applicable laws and regulations;
and
(3)     a report on compliance with applicable laws and regulations.

CG will also opine on the special-purpose ﬁnancial statements discussed in OMB
Circular A-136.

CG will issue a management letter, if less signiﬁcant weaknesses in internal controls
or less signiﬁcant issues of non-compliance with applicable laws and regulations are
identiﬁed as part of the audit. The reports will also present the status of prior year
audit ﬁndings, which will be reﬂected in the next OIG Semiannual Report.

CG may also perform agreed-upon procedures for federal intragovernmental activity
and balances if Treasury disseminates diﬀerences in balances to PBGC’s CFO and IG.              OIG and ﬁnancial

Maintaining and improving communication is very important to the OIG, CG, and CFO.
                                                                                            auditors attend the
In early April, the OIG and CG held an entrance conference to kick oﬀ this year’s audit.   CFO’s quarterly close
CG and the OIG are working closely with the CFO to coordinate and facilitate receiving
the documents and items needed by the auditors for testing. CG and OIG auditors             meetings to identify
meet regularly with the CFO and other PBGC management oﬃcials to discuss the                issues early in audit
status of the audit, including any potential or conﬁrmed signiﬁcant issues and audit
ﬁndings.

The CFO also invited the auditors to participate in periodic meetings to discuss and
understand PBGC’s interim (quarterly) ﬁnancial statements for the periods ending
March 31 and June 30, 2006. This has provided CG and the OIG with an opportunity to
understand interim results and identify issues early in the process.

CG’s preliminary draft report on internal controls was provided to management on
September 18, 2006. This continues our emphasis on accelerating the issuance of the
preliminary draft report to management and is four months earlier than the date the
draft report on the FY 2002 audit was provided to management.

PBGC continues to take steps to address the following four reportable conditions
identiﬁed in the FY 2005 Report on Internal Control: ﬁnancial management systems
integration, information security, single-employer premiums, and preparedness for
unanticipated incidences and disruptions. CG has been assessing the actions taken by
PBGC to correct and/or mitigate the reportable conditions, and has tentatively found
that some progress has been made in each case.




                             SEMIANNUAL REPORT OF THE INSPECTOR GENERAL—SEPTEMBER 2006     11
                           4.      Information Technology

                           Protecting the privacy and integrity of customer information is a major challenge for
                           PBGC. The OIG continues to perform work to assist the Corporation in meeting this
                           challenge.

                           Federal Information Security Management Act Report

                           PBGC continues to improve its system security infrastructure and posture in
                           compliance with the Federal Information Security Management Act (FISMA) of 2002, as
                           reported to OMB. During FY 2006, PBGC continued to take signiﬁcant steps to identify
                           levels of security required to control and protect its assets and information, and further
                           improve its security program. The following are examples of the progress at PBGC:
  PBGC improves
                             • Improved security of the information systems and networks used by PBGC through
  systems security,
                               new technologies, more restrictive Internet Protocol routing, systems integrity
     however,                  monitoring, and remotely monitored security incident detection.

  certiﬁcation and           • Implemented standardized system and application patches and security update
                               procedures for all major business systems and general support systems.
accreditation remain
                             • Identiﬁed the need to create a robust risk management and security program to
     a concern                 close out existing audit ﬁndings related to information security.
                             • Began planning role-based training for all staﬀ members based on current and
                               upcoming guidelines; completion planned for FY 2007 pending additional
                               funding.


                           For the past several years PBGC’s information security internal controls and operational
                           conditions was a reportable condition and continues as such today. Although PBGC
                           is making progress in some areas related to information security, enhanced eﬀorts are
                           needed in the areas of organizational responsibility and authority, policy development
                           and implementation, risk assessment and mitigation, and physical security controls.

                           Certiﬁcation and accreditation of major business and general support systems
                           continues to be a major area of concern. We have previously reported this issue in
                           our FISMA report and continued this year, as OMB increases its focus on this aspect of
                           information security. PBGC has begun to develop and implement a plan to recertify
                           and accredit all of its major business and general support systems following the
                           determination by the OIG’s independent auditors that previous certiﬁcations and
                           accreditations needed improvements.

                           Additionally, PBGC intends to identify and improve its adherence to other
                           requirements and guidance such as the National Institute of Standards and
                           Technology (NIST) Special Publications 800-37 Guide for the Security Certiﬁcation and
                           Accreditation of Federal Information Systems, NIST 800-53 Recommended Security
                           Controls for Federal Information Systems, Federal Information Processing Standards
                           Publication (FIPS) 199 Standards for Security Categorization of Federal Information
                           and Information Systems and FIPS 200 Minimum Security Requirements for Federal

                      12   PENSION BENEFIT GUARANTY CORPORATION
Information and Information Systems.

Consolidated Financial System Project                                                          Implementing a

We are encouraged that management continues its work on another reportable                consolidated general
condition: to integrate its ﬁnancial systems to improve operational eﬃciency and                ledger system
eﬀectiveness as well as data security. PBGC made signiﬁcant progress on the
Consolidated Financial Systems project in FY 2006. The general ledger consolidation            addresses a long-
is complete and in use as the system of record beginning on October 1, 2006. The           standing reportable
second round of business process reengineering is targeted for completion by mid-FY
2007.                                                                                             condition

Continuity of Operations

PBGC continues its eﬀorts to prepare for an unexpected interruption to its normal
business activities with both improvements to its Continuity of Operations Plan
(COOP) and the development of a more encompassing Contingency Plan. During
ﬁscal year 2006, PBGC conducted one major test of its COOP and participated in
the Government-wide Forward Challenge 06 (FC06) event. During the COOP test,
employees and management assembled at a backup operations site and connected
to the backup computer systems located in another part of the country to process
transactions and system operations. During the FC06 event, PBGC exercised all
components of its recovery plan, including the notiﬁcation process. OIG staﬀ
participated in both exercises, either as participants or as observers.
Although all tests were not completely successful, the goal is to identify the problems
during testing and implement corrective actions to eliminate those problems. Future
testing then concentrates on these areas to validate that corrections have been
implemented and are working properly.

The OIG will continue to monitor PBGC’s testing and provide feedback to management
to help achieve their goal of having a reliable plan for recovery of operations in the
event of a disaster or emergency situation.

Security Evaluation of Personally Identiﬁable Information

The OIG participated in the IG community’s program to gather information on PBGC’s
initiatives to comply with OMB’s Memorandum 06-16, Protection of Sensitive Agency
Information, dated June 23, 2006. All information was documented in an assessment
template and compiled into a consolidated report from all IGs. The results of our
assessment noted that PBGC has taken steps to address all or part of three of the four
recommendations for securing sensitive information. For the remaining items, PBGC
has identiﬁed responsible parties to develop plans to fully comply.




                            SEMIANNUAL REPORT OF THE INSPECTOR GENERAL—SEPTEMBER 2006     13
                           Management Practices in the Use and Distribution
                           of Blackberry Devices
                           (2006-13/IT-0021)

                           The OIG completed a review of how Blackberry technology is purchased, distributed,
                           and controlled in PBGC. The overall purpose of this review was to determine if PBGC
                           had established adequate policies and procedures to manage the use and distribution
                           of Blackberry devices, and if so, were the procedures being followed.
    Policies and
procedures needed          Based on our review, we determined that there was no:
                             • formal policy for the distribution and use of Blackberry devices and associated
  for distributing,
                               services.
using and managing          • standard practice that PBGC oﬃces are required to follow.
costs of Blackberry         • consistency in the services provided, the associated costs, and who pays.
      devices               • overall standard procedure and process for managers to use in making these
                              decisions. This is of greater concern when PBGC provides contractors with a
                              Blackberry because we may be increasing work and costs not covered in the
                              contract.
                            • transparency to allow for proper management of the costs and use of Blackberry
                              services within PBGC. Therefore, it is possible PBGC is paying for more services
                              than it really should or needs.

                           To correct this situation, we recommended that PBGC establish an overall policy and
                           procedures to address: who should receive a Blackberry; whether the service is paid by
                           PBGC, an individual department, or a contractor; what speciﬁc services are required
                           and received; and how costs and use will be better managed. Management agreed to
                           our recommendations and has targeted corrective action to be implemented by March
                           31, 2007.


                           5. Procurement and Contracting

                           Several factors make contract management a major management challenge at PBGC:

                            • the contracting activity has more than doubled from 2001 to 2006;
                            • the Corporation spends more than 60 percent of its annual budget through
                              contracts, exclusive of contracts for oﬃce space rent.
                             • the large number of labor hour contracts and the relatively low number of ﬁxed
                               price contracts: in FY2006, 55% were labor hour versus 22% ﬁxed price.
                            • limited progress by the Procurement Department to collect questioned costs or
                              settle costs through negotiation (see Appendix, page 26, Reports Issued With
                              Questioned Costs and Funds Put to Better Use).




                      14   PENSION BENEFIT GUARANTY CORPORATION
                      Growth in PBGC Contract Dollars

             275
             250
             225
  Millions




             200
             175
             150
             125
               2001      2002   2003    2004   2005     2006
                                 Fiscal Year




We continue to address this management challenge by conducting audits of PBGC
contractors. Overall, the work we do in this area is designed to:

  • Identify improvements to PBGC’s procurement process; and
  • Verify that contractor billings were allowable, reasonable, supported and
    consistent with the terms of contracts.


Examination of Contract Termination Proposal for PBGC Contractor
(2006-14/CA-0013)

PBGC terminated a signiﬁcant information technology (IT) development contract
for convenience of the government. We contracted with the Defense Contract                          Questioned costs:
Audit Agency (DCAA) to examine the termination settlement proposal and related
cost or pricing data to determine if the proposed costs are acceptable as a basis for           98% of contractor’s
negotiation.                                                                                   termination proposal

The contractor initially submitted a termination settlement proposal of $293,170.
Upon examination, DCAA found inadequacies that resulted in the contractor
submitting a revised termination settlement of $201,725. DCAA questioned $197,035
or 98% of the $201,725 because:

  • $195,756 of the proposed costs related to idle time rather than eﬀort to complete
    tasks under the terminated contract, and
  • Other questioned costs of $1,279.


The OIG recommended corrective actions including determining the allowability
of the questioned costs ($197,035) and reducing potential contract termination
payments.




                                   SEMIANNUAL REPORT OF THE INSPECTOR GENERAL—SEPTEMBER 2006   15
     Incurred Cost Audit of PBGC Contractor
     (2006-16/CA-0013)

     We contracted with the DCAA to conduct an audit of incurred costs on the
     IT development contract terminated for convenience (referenced above) to
     determine the allowability, allocability, and reasonableness of the contractor’s
     billings.

     DCAA examined the claimed contract amount of $3,063,235. DCAA found
     inadequacies that resulted in the contractor submitting a revised submission for
     $3,006,642. DCAA’s review uncovered $146,628 in questioned costs as follows:

             Voluntary Deletion      $ 56,593
             Purchased Services        44,974
             Facilities                39,044
             G&A                        4,987
             Purchase Burden            1,030
                                     $146,628

     DCAA questioned $44,974 in Purchased Services as unreasonable compensation.
     The subcontractor billed higher rates than were in their subcontract agreements.
     Also, no consultant or subcontract agreement was provided for an employee.

     DCAA further questioned $39,044 in Facility Costs that were not allocable to the
     contract. DCAA found the contractor claimed facilities costs as if all direct labor
     was performed at the contractor’s controlled oﬃce space location (there are ﬁve
     diﬀerent locations) when, based on the contract’s terms and conditions, all work
     was to be performed at PBGC customer-site location.

     The OIG recommended corrective actions including a determination of the
     allowability of the questioned costs ($146,628) and initiation of necessary
     collection actions.

     Consultations to Improve Process

     During this period, we raised contracting concerns with PBGC
     management, including:

       • using labor-hour contracts in circumstances in which ﬁxed price contracts
         are appropriate;
       • re-using statements of work for successor procurements without updating
         them, for example, to ensure work is well-described, staﬀ qualiﬁcations are
         accurate, and prospective bidders are permitted to propose cost-saving
         operating methodologies to perform the work; and
       • developing performance metrics for contractor performance.




16   PENSION BENEFIT GUARANTY CORPORATION
Based on our consultation, PBGC withdrew a request for proposal and is re-evaluating
the procurement.

We also oﬀered to consult with procurement oﬃcials in their eﬀorts to update and
develop policies and procedures, which was a ﬁnding in prior audit reports.

Work in Process

Under a ﬁrm ﬁxed price contract, we hired an Independent Public Accountant to
examine a contractor’s cost representations as presented in their invoices for services
performed for FYs 2003 - 2005. Through September 30, 2005, the contract had been
amended 14 times and the total amount obligated was more than $29 million.



Access to Information

Under the Inspector General Act, the Inspector General is to have unfettered access
to all agency records, information, or assistance when engaged in an investigation
or audit. Whenever access to requested records, information, or assistance is
unreasonably refused or not provided, the Inspector General must promptly report the
denial to the agency head.

During this six month reporting period, the Inspector General’s access to information
was not restricted.


Management Decisions
The Inspector General is required to report the following about management decisions
on audit reports that occurred during this six-month period:

  • There were no audit reports for which there was not a management decision.
  • There were no signiﬁcant revised management decisions.
  • There were no management decisions with which the Inspector General
    disagreed.




                             SEMIANNUAL REPORT OF THE INSPECTOR GENERAL—SEPTEMBER 2006    17
18   PENSION BENEFIT GUARANTY CORPORATION
Investigations
Overview
A major responsibility of the OIG is to receive and investigate complaints from
PBGC employees, the public, and other sources concerning violations of law, rule, or
regulation; mismanagement; gross waste of funds; abuse of authority; or a substantial
and speciﬁc danger to the public health and safety. Individuals may disclose
information or make complaints to the Inspector General through the OIG Hotline (see
announcement on back cover page). The Inspector General protects the legal rights
of whistle-blowers and complainants and takes great care not to disclose their identity
without their consent.


OIG Hotline

The OIG operates a separate toll-free Hotline telephone number, a conﬁdential fax,
and a conﬁdential Hotline post oﬃce box (see back page). The OIG Hotline telephone
is answered by an investigative technician from 10:00 am to 3:00 pm, Monday through
Friday. At other times, callers may leave a voice message and we will respond within
one business day.


Significant Investigations
Ethical Misconduct

Manager Operates Travel Business at PBGC
                                                                                           Manager used PBGC
We found a PBGC manager was using PBGC government resources while on oﬃcial
time to operate a travel agency service. On multiple occasions from 2001 through               resources to solicit
2006, the manager used PBGC e-mail, telephone, and the fax to solicit, arrange and             and arrange travel
book travel for PBGC federal employees and private individuals and entities while
at work. Federal ethics rules require employees to conserve Government property           for federal employees
and not use such property, or allow its use, for other than authorized purposes.                and contractors
Additionally, PBGC’s electronic communications policy speciﬁcally forbids using
government resources to conduct a private business. The manager had received
ethics training and was aware of PBGC’s electronic communications policy. We issued
an investigative report to management after the case was declined for prosecution.




                            SEMIANNUAL REPORT OF THE INSPECTOR GENERAL—SEPTEMBER 2006     19
                            Manager Reprimanded for Ethics Violation

                             In a previous semiannual report, we reported that a PBGC manager had engaged in
                            ethical misconduct, including soliciting and receiving a $2000 loan from an employee
                            who was under the manager’s direct supervision, and failing to list signiﬁcant
                            ﬁnancial interests with a supervisor that must be disclosed on annual Federal ﬁnancial
                            disclosure forms. Federal ethics rules prohibit supervisors borrowing or receiving
                            gifts of more than $25 from a subordinate and federal law requires senior oﬃcials
                            to disclose signiﬁcant ﬁnancial interests. We issued a report of investigation to
                            management after the case was declined for prosecution. PBGC management issued a
                            Letter of Reprimand as a result of our investigation.


                            Pension Fraud

                            Conviction and Restitution Ordered for Missing Participants’ Checks

                            PBGC employees referred several suspicious claims to OIG concerning the PBGC
                            Missing Participant Program. As part of an ongoing investigation, we identiﬁed
                            numerous instances of identity theft, money laundering, bank fraud, and forgery. To
                            carry out this fraud, several individuals participated in a scheme to claim beneﬁts of
                            missing participants and cash checks intended for participants PBGC is trying to locate.
                            In completing the investigation, we worked closely with the Oﬃce of Attorney General
                            and a Federal ﬁnancial crimes task force in Pittsburgh, PA. The case has resulted in
                            referrals to federal and state prosecutors. In August, one individual pled guilty and
 Pension Fraud results:     was sentenced by the United States District Court to 1 year in prison, three years
                            of Supervised Release, and ordered to pay restitution of $77,055. Prosecutors are
- man convicted for part
                            considering charges for other individuals implicated in the case.
  in identify theft ring
                            Non-receipt of Beneﬁt Checks
- estranged wife caught
stealing pension checks     PBGC referred a participant’s claim that he had not received two of his pension checks
                            to OIG. In pursuing the investigation, we worked closely with local police, bank fraud
                            investigators, one of PBGC’s regional Field Beneﬁt Administration oﬃces, and State Street
                            Bank. Our investigation determined that the missing checks were fraudulently cashed
                            by the participant’s estranged wife. The case was declined for prosecution when the
                            wife’s bank froze suﬃcient assets to cover the amount of the missing pension checks and
                            agreed to transfer the funds back to PBGC’s trust fund.




                       20   PENSION BENEFIT GUARANTY CORPORATION
Management Advisory

During this reporting period, we issued a management advisory identifying several
weaknesses within the Missing Participant program causing vulnerability to fraudulent
activity. For example, we noted:
                                                                                                  Investigator’s notify
  • Many people had access and ability to change personal information about pension
    participants, with no audit trail.                                                             management of
                                                                                             program vulnerabilities
  • Questions to verify the identity of purported participants who call to change personal
    information, such as address or bank information, were not eﬀective.


  • Authorizers had no process to verify the accuracy of changed information.


We met with PBGC management to discuss options and recommend actions to reduce
the vulnerability of PBGC Missing Participant Program assets to future fraudulent
schemes. The management advisory was the result of an on-going investigation in which
the Corporation paid out more than $162,000 based on fraudulent birth certiﬁcate
documentation.


We also closed 7 inquires that raised issues of fraud relating to pension plans and
beneﬁts.




                             SEMIANNUAL REPORT OF THE INSPECTOR GENERAL—SEPTEMBER 2006       21
SUMMARY OF INVESTIGATIVE ACTIVITIES
For The Six-month Period Ending September 30, 2006
Investigations
    Pending beginning of period                              23
    Opened                                                    4
    Closed                                                   10
    Pending end of period                                    17
Inquiries
    Pending beginning of period                              10
    Opened                                                   11
    Closed                                                   16
    Pending end of period                                     5
Financial Recoveries*
    Theft of Funds Recovered                            $4,732
    Court Ordered Fines, Penalties, and Restitution    $77,055
    U.S. Government Property Recovered                       0
Criminal Actions*
    Arrests                                                   0
    Indictments                                               1
    Convictions                                               1
Administrative Actions*
   Terminations                                               1
    Suspensions                                               1
   Oral or Written Reprimand                                  1
Referrals
    For Prosecution:
        Department of Justice                                 8
           Declined                                           7
        Various States’ Attorney Oﬃces                        0
           Declined                                           0
    For Other Action:
          PBGC Management for Corrective Action               2

     * Results reported for Financial Recoveries, Criminal and Administrative Actions
     include both open and closed cases.




                    22        PENSION BENEFIT GUARANTY CORPORATION
Other Oﬃce of
Inspector General Activities
Review of Proposed Statutory and Regulatory Changes

Statutes

A major responsibility of the OIG under the IG Act is to independently review changes
to laws and regulations that are proposed by PBGC. In August 2006, the President
                                                                                          The Pension Protection
signed into law the Pension Protection Act of 2006. This Act amended ERISA to
provide simplicity, ﬂexibility, accuracy and stability in the deﬁned beneﬁt pension             Act of 2006: to
insurance program that PBGC administers. Key hallmarks of the legislation were
                                                                                               provide for better
provisions to increase pension plans’ funding of future promised beneﬁts and the
amount of premiums paid to PBGC, thereby decreasing PBGC’s risk, and to require                funding of pension
greater transparency in how well a pension plan is funded. As stated previously in this
                                                                                               plans and greater
report, we are monitoring the impact of this signiﬁcant amendment of ERISA Title IV.
                                                                                               stability for PBGC.
Regulations

PBGC continues in a major eﬀort to streamline its regulations and to improve
administration of the pension insurance program, with a focus on making pension-
related information more accurate, complete and transparent. PBGC issued a ﬁnal rule
on mortality assumptions used for valuing annuity beneﬁts of missing participants,
and policy guidance for premium penalty waivers. We reviewed and commented on
these rules in prior reporting periods.


Internal PBGC Activities

OIG staﬀ members have engaged in several activities within PBGC to promote
fraud prevention, improve relationships between the OIG and PBGC, and provide
consultations to managers to improve agency operations. Among these activities are
the following:

 • As part of our on-going eﬀort with executive management to strengthen PBGC’s
   ethical environment, the IG and General Counsel provided ethics training to
   supervisors and staﬀ that emphasizes ethical leadership and encourage thinking
   beyond the requirements of ethics regulations.


 • The Assistant IG for Investigations is participating as a non-voting member of
   the agency’s Internal Control Committee, providing insight on fraud prevention
   and detection. This committee is responsible for oversight and accountability
   regarding PBGC internal controls over ﬁnancial reporting and its operations


                            SEMIANNUAL REPORT OF THE INSPECTOR GENERAL—SEPTEMBER 2006     23
                               consistent with the Standards for Internal Control for the Federal Government
                               (GAO Green Book), OMB Circular A-123, and Federal Managers’ Financial Integrity
                               Act requirements.


                             • The IG is again serving as an executive mentor in the “Leaders Growing Leaders”
                               program.


                             • The investigators conducted fraud brieﬁngs at each training session for the
                               agency’s new travel system.

                           External Activities
                           Various staﬀ members participated in external professional activities, including the
                           following:

                             • The IG was an active participant of the Executive Council on Integrity and Eﬃciency
                               (ECIE), a council of Inspectors General that promotes collaboration on integrity,
                               economy, and eﬃciency issues that transcend individual agencies. During
                               this reporting period, he continued to participate in initiatives to improve staﬀ
                               development in the IG community:

  OIG staﬀ are
                                 • He served as Chairman of the Board of Governors for the newly-formed
 encouraged to
                                   Inspector General Institute that was to combine schools of audit, investigations
  participate in                   and management to provide training to over 11,000 professionals in the
                                   IG community by October 1, 2006. In the latter part of September, the IG
external activities                community decided not to fund the Institute.


                             • The IG serves on the International Conference Committee of the Institute of
                               Internal Auditors. The Committee focuses on identifying trends in internal
                               auditing and organizing and hosting international professional development
                               conferences.


                             • The Assistant IG for Audit is a member of the Federal Audit Executive Council
                               (FAEC). The FAEC’s purpose is to discuss and coordinate issues aﬀecting the
                               federal audit community, with special emphasis on audit policy and operations of
                               common interest to FAEC members. He serves on the FAEC’s Audit Committee that
                               sponsored training in April on the new peer review guidance.


                             • IT Audit Manager serves as the Program Committee Chair for a chapter of the
                               Information Systems Audit and Control Association (ISACA). This committee is
                               responsible for setting the program for the membership’s monthly meetings
                               including topics and speakers to further the knowledge and skill level of its
                               membership. All programs provide members an opportunity to receive continuing


                      24   PENSION BENEFIT GUARANTY CORPORATION
   professional education credits to meet their certiﬁcation requirements in the ﬁelds
   of audit, technology, security, controls, and management for both the private and
   public sectors.


 • The OIG was asked to provide staﬀ to participate as external observers in Forward
   Challenge 06, the Government-wide initiative to test continuity of operations                OIG staﬀ were
   plans (COOP). The IT audit manager and an auditor observed the recovery process            external evaluators
   and execution of the Peace Corps’ COOP. The Federal Emergency Management
   Agency (FEMA) was responsible for training personnel in their roles as observers       for the government-
   and coordinating this exercise. The OIG staﬀ observed the Peace Corps during the           wide continuity of
   two-day exercise, then analyzed and reported the results to FEMA for compilation
   into a consolidated report to Congress.                                                      operations test


 • An OIG auditor serves as president of PBGC’s local chapter of the Federal
   Manager’s Association, which meets monthly for lunch to hear speakers on various
   management topics, discuss PBGC issues and network.


 • Two OIG staﬀ are tutoring children in PBGC’s partnership with the Thomson
   Elementary School.


Internal OIG Initiatives

Hotline Expanded

We improved our OIG Hotline telephone by expanding the hours of operation. An
investigative staﬀ assistant will answer the Hotline (1-800-303-9737) from 10:00 am
to 3:00 pm (Eastern Standard Time), Monday through Friday. Callers also may leave a            We expanded our
voice message 24 hours a day, 7 days a week. We will review and respond to the caller
within one business day. In addition to the hotline number, the OIG has a conﬁdential
                                                                                          Hotline telephone to
Hotline post oﬃce box, and conﬁdential hotline fax. We are setting up a conﬁdential       provide better access
Hotline e-mail address and a marketing program to publicize the various ways
individuals can conﬁdentially contact the OIG.

Procurement Manual

The OIG exercises the contracting authority granted by the IG Act by conducting its
own contracting and procurement program. We developed a Procurement Manual to
document our processes for procuring goods and contract services within the OIG to
establish responsibilities and ensure consistency.




                            SEMIANNUAL REPORT OF THE INSPECTOR GENERAL—SEPTEMBER 2006    25
Appendix
CROSS-REFERENCE TO REPORTING REQUIREMENTS
OF THE INSPECTOR GENERAL ACT

The table below cross-references the reporting requirements prescribed by the Inspector
General Act of 1978, as amended, to the speciﬁc pages in the report where they are
addressed.

Inspector General
Act Reference          Reporting Requirements                             Page
Section 4(a)(2)        Review of legislation and regulations.             23
Section 5(a)(1)        Signiﬁcant problems, abuses, and deﬁciencies.      5-17, 19-21
Section 5(a)(2)        Recommendations with respect to signiﬁcant         5-17, 19-21
                       problems, abuses, and deﬁciencies.
Section 5(a)(3)        Prior signiﬁcant recommendations on which          29
                       corrective action has not been completed.
Section 5(a)(4)        Matters referred to prosecutorial authorities.     19-22
Section 5(a)(5)        Summary of instances in which information          17
                       was refused.
Section 5(a)(6)        List of audit reports by subject matter, showing 28
                       dollar value of questioned costs and
                       recommendations that funds be put to better use.
Section 5(a)(7)        Summary of each particularly signiﬁcant report.    5-17, 19-21
Section 5(a)(8)        Statistical table showing number of reports and    28
                       dollar value of questioned costs.
Section 5(a)(9)        Statistical table showing number of reports and    28
                       dollar value of recommendations that funds be
                       put to better use.
Section 5(a)(10)       Summary of each audit issued before this           17
                       reporting period for which no management
                       decision was made by end of reporting period.
Section 5(a)(11)       Signiﬁcant revised management decisions.           17
Section 5(a)(12)       Signiﬁcant management decisions with which         17
                       the Inspector General disagrees.




                           SEMIANNUAL REPORT OF THE INSPECTOR GENERAL—SEPTEMBER 2006      27
REPORTS ISSUED WITH QUESTIONED COSTS
AND FUNDS PUT TO BETTER USE*
For the Six-Month Period Ending September 30, 2006



                                                      Number          Questioned         Unsupported       Funds put to
                                                     of Reports         Costs              Costs**          Better Use

  A. For which no management decision had                 13           $5,783,148          $4,843,822              -0-
    been made by the commencement of the
    reporting period.
  B. Which were issued during the reporting                3            $450,096                -0-                -0-
    period

  Subtotal (Add A. & B.)                                  16           $6,233,244          $4,843,822              -0-


  C. For which a management decision was                   2            $662,819            $624,342               -0-
    made during the reporting period.

  (i) dollar value of disallowed costs                    -0-               -0-                -0-                 -0-


  (ii) dollar value of costs not disallowed                2            $662,819            $624,342               -0-


  D. For which no management decision had                 14           $5,570,425          $4,219,480              -0-
    been made by the end of the reporting
    period.
  E. For which no management decision was                 11           $5,120,329          $4,219,480              -0-
     made within six months of issuance.



*This statistical information is required by Section 5(a)(6)(8) and (9) of the Inspector General Act of 1978, as
amended.
**Unsupported costs are a subset of questioned costs.




                     28         PENSION BENEFIT GUARANTY CORPORATION                              28
SIGNIFICANT PROBLEMS, DEFICIENCIES AND RECOMMENDATIONS




Report Number, Report Title and       Number of              Signiﬁcant Problems Summary of Signiﬁcant
Date Issued                           Signiﬁcant             and Deﬁciencies     Recommendations
                                      Recommendations
96-4/23093-2                                                 Reportable            PBGC needs to complete
Audit of the Pension Beneﬁt                                  Condition:            the integration of its ﬁnancial
Guaranty Corporation’s Fiscal                                Integrating           management systems.
Year 1995 Financial Statements                 1**           Financial
03/13/1996                                                   Management
                                                             Systems
2003-3/23168-2                                               Reportable            PBGC needs to complete its
Audit of the Pension Beneﬁt                                  Condition:            efforts to fully implement and
Guaranty Corporation’s Fiscal Years                          Implementing          enforce an effective information
2002 - 2001 Financial Statements               2**           & Enforcing           security program.
01/30/2003                                                   Information
                                                             Security Program
2004-2/23176-2                                               Reportable            PBGC needs to improve
Audit of the Pension Beneﬁt                                  Condition:            controls related to single-
Guaranty Corporation’s Fiscal Years                          Improving Single-     employer premiums.
                                               3**
2004 - 2003 Financial Statements                             Employer Premium
1/15/2004                                                    Accounting System

2006-1/FA-0014-1                                             Reportable            PBGC needs to strengthen its
Audit of the Pension Beneﬁt                                  Condition:            preparedness for unanticipated
Guaranty Corporation’s Fiscal Years                          Strengthening         incidences and disruptions.
2005 - 2004 Financial Statements                             Preparedness for
                                               3**
11/15/2005                                                   Unanticipated
                                                             Incidences &
                                                             Disruptions


* This chart complies with Section 5(a)(1)(2)(3) and (6) of the Inspector General Act of 1978, as Amended.
** Includes Signiﬁcant Recommendations from previous semi-annual reports on which corrective action has not
been completed.




                           SEMIANNUAL REPORT OF THE INSPECTOR GENERAL—SEPTEMBER 2006        29
     Glossary
     Questioned Cost
     A cost the OIG has questioned because of an alleged violation of law, regulation,
     contract, grant, cooperative agreement, or other agreement or document governing
     the expenditure of funds; because such cost is not supported by adequate
     documentation; or because the expenditure of funds for the intended purpose is
     unnecessary or unreasonable.

     Unsupported Cost
     A cost the OIG has questioned because of a lack of adequate documentation at the
     time of the audit.

     Disallowed Cost
     A questioned cost that management, in a management decision, has sustained or
     agreed should not be charged to the government.

     Funds to Be Put to Better Use
     Funds the OIG has identiﬁed in an audit recommendation that could be used more
     eﬃciently by reducing outlays, deobligating program or operational funds, avoiding
     unnecessary expenditures, or taking other eﬃciency measures.

     Management Decision
     Management’s evaluation of audit ﬁndings and recommendations and issuance
     of a ﬁnal decision concerning management’s response to such ﬁndings and
     recommendations.

     Final Action
     The completion of all management actions described in a management decision with
     respect to audit ﬁndings and recommendations. If management concluded that no
     actions were necessary, ﬁnal action occurs when a management decision is issued.

     Misconduct
     Action of employees or contractors that violates laws, rules, or regulations and for
     which corrective action is warranted.




30   PENSION BENEFIT GUARANTY CORPORATION
If you want to report or discuss conﬁdentially any instance of
     misconduct, fraud, waste, abuse, or mismanagement,
                        please contact
                the Oﬃce of Inspector General.


                         Telephone:

              The Inspector General’s HOTLINE
                      1-800-303-9737

        For deaf or hard of hearing people, dial FRS
 (800) 877-8339 and give the Hotline number to the agent.

                          Or write:

           Pension Beneﬁt Guaranty Corporation
                Oﬃce of Inspector General
                      PO Box 34177
               Washington, DC 20043-4177
